HHS/OIG, Audit -"Audit of Medicare Administrative Costs Claimed by Blue Cross Blue Shield of Florida for Fiscal Years 1995 Through 1998,"(A-04-99-05561)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Medicare Administrative Costs Claimed by Blue Cross Blue Shield of Florida for Fiscal Years 1995 Through
1998," (A-04-99-05561)
July 31, 2002
Complete
Text of Report is available in PDF format (6.45 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to evaluate the reasonableness and allowability of costs claimed for reimbursement by
the contractor on its final administrative cost proposals for the period October 1, 1994 through September 30, 1998.  We
identified $5,158,255 of unallowable charges to the Medicare program and set aside $104,836,580 for the Centers for Medicare & Medicaid
Services (CMS) resolution.  We also identified several areas where improvements in the contractor's internal controls
and cost allocation system are needed.  We recommended that the contractor reduce its claim by $5,158,255,  provide
documentation to the CMS contracting officer to support the allowability and allocability of the $104,836,580 of costs
set aside, and implement various procedural recommendations to ensure that administrative costs charged to Medicare are
allowable.  A follow-up report  was issued on April 21, 2003 (report number A-04-03-02024).